HHS/OIG, Audit -"Review of Medicare Payments for Services Provided to Incarcerated Beneficiaries in the State of Florida,"(A-04-02-05012)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Services Provided to Incarcerated Beneficiaries in the State of Florida," (A-04-02-05012)
October 30, 2002
Complete
Text of Report is available in PDF format (373 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare fee-for-service claims paid for services provided to incarcerated
beneficiaries during the 3-year period January 1, 1997 through December 31, 1999 were in compliance with federal regulations
and Centers for Medicare & Medicaid Services (CMS) guidelines.  This review is part of a nationwide review requested
by the Senate Finance Committee.  We found that prisoner data from the Social Security Administration was not contained
in CMSs records; therefore, the Medicare fiscal intermediary and carrier in Florida did not have controls in place to
detect claims submitted on behalf of incarcerated beneficiaries.  Once CMS' common working file edit and modifier
are initiated, corrective actions can be implemented.  We will provide CMS, for their referral to the State, with
specific examples of instances in which due diligence was not pursued and corrective actions may be necessary.